Audit Report

Grants Administered by the Turtle Mountain Band of Chippewa IndiansBelcourt, North Dakota

Report No. GR-60-04-003


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Drug Court grants awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to Turtle Mountain Band of Chippewa Indians (Turtle Mountain).  The purpose of these grants was to establish a drug court to achieve a reduction in recidivism and substance abuse among non-violent offenders, and to increase their likelihood for successful rehabilitation through early, continuous, and intensive judicially supervised treatment, mandatory periodic drug testing, and the use of appropriate sanctions and other rehabilitation services.
We tested Turtle Mountain's accounting records to determine if reimbursement claimed for costs under the grants was allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit disclosed that Turtle Mountain charged unallowable costs to the grants, did not have proper documentation to support expenditures and matching costs, paid salaries in excess of approved rates, and incorrectly reported total outlays on Financial Status Reports.  Additionally, required progress reports were not submitted.   As a result of the deficiencies identified below, we question $604,806, or 48 percent of the total grant funds awarded.1  Specifically, we found:

Unallowable direct costs totaling $88,278 including travel and equipment purchases, were charged to the grants.


Documentation was not adequate to support direct costs totaling $22,298 that were charged to the grants.


Documentation was not available to support in-kind matches, resulting in questioned costs of $377,257.


Funds totaling $36,052 were not used for salary as authorized in the Financial Clearance Memorandum.  ($25,109 of this amount was excluded from questioned costs in Appendix II as it would have resulted in questioned costs exceeding the grant amount.)


Unallowable salary costs of $80,123 were charged to the grants.


Unallowable excess fringe benefits of $8,617 were charged to the grants.


Total outlays on the Financial Status Reports did not agree with accounting records.


Progress Reports were not submitted as required.


Drawdowns totaling $17,290 were made after the expiration of two grants.  Extensions were not requested.

We previously furnished OJP and Turtle Mountain with copies of the draft report and requested written comments.  The comments provided by OJP appear in Appendix VIII.  Turtle Mountain did not provide us with comments on the draft report.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978, et seq.  contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.